                     U.S. DEPARTMENT OF LABOR
                 EVALUATION OF GRANT CLOSEOUT
                       PRACTICES APPLIED TO
               JOB TRAINING PARTNERSHIP ACT GRANTS

          GRANTS AWARDED TO THE STATE OF NEW YORK

               INDEPENDENT ACCOUNTANTS’ REPORT
              ON APPLYING AGREED-UPON PROCEDURES




                 JULY 1, 1997 THROUGH JUNE 30, 2000




R. Navarro & Associates, Inc. prepared this report under contract to the U.S.
Department of Labor, Office of Inspector General, and by acceptance it becomes a
report of the Office of Inspector General.



                        __________________________________________
                        Assistant Inspector General for Audit
                        U.S. Department of Labor




                                            Report No.: 04-03-014-03-340
                                            Date Issued: May 5, 2003


                   R. NAVARRO & ASSOCIATES, INC.
                                                   TABLE OF CONTENTS



ACRONYMS .................................................................................................................................iii

INDEPENDENT ACCOUNTANTS’ REPORT ON APPLYING AGREED-UPON
PROCEDURES............................................................................................................................... 1

SUMMARY OF FINDINGS .......................................................................................................... 2

BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY .......................................... 3

          BACKGROUND ................................................................................................................ 3

          OBJECTIVES, SCOPE AND METHODOLOGY ............................................................. 3

PROCEDURES AND FINDINGS.................................................................................................. 4

STATE OF NEW YORK’S RESPONSE AND
INDEPENDENT ACCOUNTANTS’ COMMENTS ..................................................................... 8

EXHIBIT I – COMPLETE TEXT OF THE STATE OF NEW YORK’S RESPONSE ................. 9




                                                                     ii
                                   ACRONYMS



CFR     Code of Federal Regulations
CWE     Consortium for Workers’ Education
DOL     U.S. Department of Labor
EDWAA   Economic Dislocation and Worker Adjustment Assistance Act
ETA     Employment and Training Administration
FSR     Financial Status Report
FY      Fiscal Year
JTPA    Job Training Partnership Act
NOA     Notice of Obligational Authority
NOO     Notice of Obligation
OIG     Office of the Inspector General
OMB     Office of Management and Budget
PY      Program Year
SFY     State Fiscal Year
SDA     Service Delivery Area
SEFA    Schedule of Expenditures of Federal Awards
WIA     Workforce Investment Act




                                          iii
Mr. Elliot P. Lewis
Assistant Inspector General for Audit
Office of Inspector General
U.S. Department of Labor

                       INDEPENDENT ACCOUNTANTS’ REPORT
                      ON APPLYING AGREED-UPON PROCEDURES

We have performed the procedures enumerated in the “Procedures and Findings” section of this
report. These procedures were agreed to by the U.S. Department of Labor (DOL), Office of
Inspector General (OIG). We completed the procedures solely to assist OIG in evaluating the
State of New York’s closeout practices for Job Training Partnership Act (JTPA) grants awarded
by the DOL Employment and Training Administration (ETA) from July 1, 1997 through June 30,
2000.

Management of the State of New York is responsible for closing JTPA grants in accordance with
applicable regulations and requirements established by ETA. ETA is responsible for processing
and certifying grant closure, and recording final obligation, expenditure and payment information
in the DOL’s general ledger.

This agreed-upon procedures engagement was performed in accordance with the attestation
standards established by the American Institute of Certified Public Accountants, and Government
Auditing Standards issued by the Comptroller General of the United States. The sufficiency of
these procedures is solely the responsibility of your office as the specified user of the report.
Consequently, we make no representation regarding the sufficiency of the procedures performed
either for the purpose for which this report has been requested or for any other purpose.

The results of our procedures are described in the “Procedures and Findings” section of this
report.

We were not engaged to, and did not, perform an examination, the objective of which would be
the expression of an opinion on the accompanying information obtained from the respective
entities. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the DOL, OIG, and is not intended to
be, and should not be used, by anyone other than the specified party.


April 5, 2002
                                  SUMMARY OF FINDINGS


The State of New York (State) submitted its Job Training Partnership Act (JTPA) closeout
package to the U.S. Department of Labor (DOL), Employment and Training Administration
(ETA) on August 15, 2001, after requesting and receiving an extension through June 30, 2001.
We identified the JTPA expenditures reported on the final closeout report, and found that the
expenditures reported reconciled to the State’s accounting records. In addition, the final
expenditures reported were reasonable based on data previously reported to ETA.

The JTPA program was audited as a major program in the State’s single audits for State Fiscal
Year (SFY) 2000 and SFY 1999. The SFY 2000 single audit report included one finding
pertaining to the JTPA program, which was reported as a material weakness. In this finding, the
auditors noted that the State used its subrecipients’ Office of Management and Budget (OMB),
Circular A-133 reports as a component of their monitoring process, and noted that the State did
not perform an adequate desk review to ensure that submitted reports were performed in
accordance with OMB Circular A-133.

We visited two subrecipients, and found that final expenditures reported to the State reconciled
to the subrecipients’ accounting records.

State of New York’s Response

The State of New York Department of Labor provided a written response to our draft report,
dated March 3, 2003, which is included in its entirety at Exhibit I. With a few exceptions, New
York concurred with the information presented in this report.




                                                2
             BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY


Background

The JTPA was enacted in 1982 to provide job training programs which would afford
disadvantaged youth and adults with the training necessary to obtain productive employment.
The JTPA program was repealed on June 30, 2000, when ETA implemented a successor
program, authorized by the Workforce Investment Act. The closeout of active JTPA grants
began in July 1999, with final closeouts due no later than December 31, 2000. Unspent funds
from the PY 1998 and PY 1999 JTPA State grants were authorized for transition into the WIA
program.

All JTPA closeout information is sent to the DOL, ETA, Office of Grant and Contract
Management, Division of Resolution and Appeals. According to 20 CFR, Part 627.485, JTPA
grants should normally have been closed within 90 days after the time limitation for expenditure
of JTPA funds. For PY 1997 grants, the 90-day limitation expired September 30, 2000.
However, in certain instances, ETA extended the reporting beyond that specified in the program
regulations. According to instructions set forth by ETA in the JTPA Financial Closeout
Technical Assistance Guide, final JTPA financial reports for PY 1998 and PY 1999 grants should
have been submitted no later than December 31, 2000.

Objectives, Scope and Methodology

In general, our procedures were designed to determine if: the State of New York closed its JTPA
grants on a timely basis in accordance with ETA instructions; amounts reported in the closeout
packages and/or the final cost reports were reasonable and supported by the State=s and
subrecipients’ accounting records; and there were unresolved audit findings pertaining to JTPA
awards.

Our agreed-upon procedures include the JTPA funds awarded to the State of New York for PYs
1997, 1998 and 1999, and FYs 1997 and 1998. Procedures were applied to grant activities
reported by the State and two subrecipients, Consortium for Workers Education and the City of
New York, on final closeout reports.




                                               3
                             PROCEDURES AND FINDINGS


1.   Identify the State’s JTPA grants to be included in the scope of these procedures, and
     the obligations and final reported expenditures related to each.

     The JTPA grants awarded to the State and included in the scope of these procedures are
     as follows:
                                                            Per Grantee Closeout
                                 Federal              Total                                 Net
                                Obligations         Reported             Intertitle     Expenditures
         Year and Title         Authority          Expenditures          Transfers      (Computed)
      FY 97 IIB                 $ 62,275,486       $     58,864,819     $(3,410,667)    $ 62,275,486
      PY97 II & IIIF            169,479,738             171,813,241         3,410,667    168,402,574
      PY 97 III EDWAA-D           8,764,687               8,697,233                0       8,697,233
      FY 98 IIB                  67,934,185              62,446,598      (5,487,587)      67,934,185
      PY 98 II & IIIF           204,020,983             195,063,632         5,487,587    189,576,045
      PY 98 III& EDWAA-D            625,754                404,954                 0         404,954
      PY 99 IIA & IIIF          229,242,351              96,130,970         (701,143)     96,832,113
      PY 99IIB & IIC             87,182,149              79,586,657          701,143      78,885,514
      PY 99II EDWAA-D             1,650,016               1,553,285                0       1,553,285
       Total                   $831,175,349            $674,561,389     $          0    $674,561,389



2.   Determine if the JTPA grants awarded to the State were closed on a timely basis in
     accordance with ETA instructions.

     The State requested a six-month extension of the closeout period for Program Years
     1997, 1998, and 1999. The request was reviewed and approved by ETA, who granted an
     extension of the closeout period to June 30, 2001. The State was not in compliance with
     the extension period and did not submit the closeout package until August 15, 2001.

     ETA reviewed the closeout package submitted on August 15, 2001 and disallowed
     $5,023,129 of expenditures related to certain Economic Dislocation and Worker
     Adjustment Assistance Act (EDWAA) time distribution adjustments for Project #5528
     (EDWAA Reapportioned Department Administration). Because of the disallowed costs,
     the State will have to revise and resubmit the closeout package to ETA.

     As of the exit conference date of March 28, 2002, State officials could not provide us
     with an estimated date the closeout will be resubmitted. In addition, the original closeout,
     dated August 15, 2001 did not include required documents, such as:




                                               4
        Government Property Closeout Inventory Certification
        List of possible Claimants for unclaimed checks canceled or payment stopped, if
        applicable.
        Refund check(s) with letter of explanation
        Unliquidated advance payments with letter of explanation
        Aggregate of unclaimed wages/other outstanding check with explanation
        Interest earned or owed on Government Funds with explanation
        Other refunds with explanation

     Each item listed above is required to be covered, if applicable and must be explained fully
     if omitted. State officials were aware of their requirement to submit these forms with the
     final closeout package.

3.   Inspect the closeout information reported to ETA, and determine if the information
     was reasonable based on data previously reported on final FSRs.

     The State of New York submitted final FSRs with the closeout package; consequently,
     there were no differences between the FSRs and the closeout. As an alternative
     procedure, we inspected the JTPA reconciliation worksheet prepared by ETA which
     identified the final cost entries required to be recorded in the DOL’s general ledger. This
     worksheet did not identify significant adjustments to previously recorded grant costs.
     Accordingly, the amounts reported on the closeout package are considered to be
     reasonable based on amounts previously reported to ETA.

4.   Determine if amounts reported on final cost reports or on the closeout package were
     supported by the State’s accounting records.

     We compared the JTPA expenditures reported to the DOL on the closeout package to
     expenditures recorded in the State’s accounting records, and found that the amounts
     reported reconciled to the State’s official records.

5.   Select a sample of five final closeout reports submitted by subrecipients to the State,
     and determine if the subrecipients’ final JTPA expenditures were accurately
     recorded in the State’s accounting records.

     We obtained closeout reports submitted to the State by five subrecipients, and compared
     the final expenditures reflected on the closeout reports to expenditures recorded in the
     State’s accounting records. In all cases, the final subrecipient expenditures were
     accurately recorded in the State’s accounting records.




                                              5
6.   Obtain the State’s single audit reports submitted for the two most recent fiscal years
     available, and identify the JTPA expenditures reported on the Schedule of
     Expenditures of Federal Awards (SEFA). Determine if these funds were tested as a
     major program, in accordance with single audit requirements.

     We obtained the State’s single audit reports for SFY 1999 and SFY 2000, and identified
     the total JTPA expenditures reported on the SEFA, $245.4 million and $258.4 million,
     respectively. The JTPA program cluster was listed as a major program for both fiscal
     years.

7.   Determine if the single audit reports identified reportable conditions, material
     weaknesses, report qualifications, or any other audit issues pertaining to JTPA
     grants that remain unresolved.

     The State’s annual single audit report for SFY 2000 (most recent available) included one
     finding relevant to the JTPA program which was reported as a material weakness and
     considered unresolved as of the date of that report (November 17, 2000). The finding
     pertained to the State’s responsibility to monitor single audit reports of subrecipients to
     ensure such audits were properly performed in accordance with OMB Circular A-133
     standards, and to identify to the subrecipient Federal award information and applicable
     compliance requirements.

     The auditors found that the State notified subrecipients of Federal award information
     through the Notice of Obligational Authority (NOA); however, the NOAs did not identify
     the CFDA numbers of the programs within the JTPA cluster. The auditors also noted that
     the State used their subrecipients’ single audits as a component of their subrecipient
     monitoring process. They concluded that the State did not perform an adequate desk
     review of the single audit reports to ensure that submitted reports were performed in
     accordance with OMB Circular A-133.

8.   Obtain the final cost reports submitted by two subrecipients and determine if the
     amounts reported were supported by the subrecipients’ accounting records.

     We visited two subrecipients, the Consortium for Workers’ Education and the City of
     New York. For each subrecipient, we compared the final JTPA expenditures reported to
     the State to expenditures recorded in the subrecipients’ accounting systems, and found
     that the amounts reconciled.

     For the City of New York, the JTPA final expenditures reported to the State were
     supported by the accounting records. However, cash balances reported by the City on the
     October 1998 Monthly Summary Cash Report did not reconcile to the Monthly Statement
     of Daily Cash Transactions by $10,500,000. State officials informed the City that
     funding would be stopped if the October 1998 reports were not reconciled.


                                              6
      The State’s Financial Oversight and Technical Assistance team had been working with
      the City in the reconciliation process and continued to assist them. Subsequently, the
      reconciliation process was completed and accepted by the State.

9.    Obtain the subrecipients’ single audit reports and identify the JTPA expenditures
      reported on the Schedule of Expenditures of Federal Awards. Determine if the
      amounts agree or were reconciled by the single auditors to the expenditures
      recorded in the accounting records.

      We obtained the single audit reports for both subrecipients visited and identified the
      JTPA expenditures reported on the SEFA. We compared the SEFA expenditures to
      expenditures recorded in the subrecipients’ accounting records, and found that the
      amounts reconciled.

10.   Inspect the single audit reports submitted for the subrecipients and determine if
      there were reportable conditions, material weaknesses, report qualifications, or any
      other audit issues pertaining to JTPA grants that remain unresolved.

      We obtained the single audit reports for both subrecipients visited, and determined that
      the audit reports did not identify any unresolved reportable conditions, material weakness,
      report qualifications or other audit issues which pertained to the JTPA program.




                                               7
                        STATE OF NEW YORK’S RESPONSE AND
                      INDEPENDENT ACCOUNTANTS’ COMMENTS



State of New York’s Response

The New York Department of Labor provided a written response to our draft report, dated March
3, 2003, which is included in its entirety at Exhibit I. The key points provided by the State
pertain to procedures 2 and 7 of this report, as follows:

1.     The State contended that the submission of their initial closeout on August 15, 2001 was
       not late, but was within the 45-day allowance period for the quarter ended June 2001.

2.     The State disputed the single audit finding presented at procedure 7 of this report, stating
       that their single auditors incorrectly concluded that the State’s subrecipient monitoring
       was inadequate, and that the finding was dropped in the subsequent year’s audit.

3.     The State clarified that the JTPA expenditures disallowed by ETA was $5,023,129.

With their response, New York provided a revised closeout package that reduced total JTPA
expenditures from $674.5 million to $669.9 million.


Independent Accountants’ Comments

The deadline established by ETA for submitting final JTPA expenditures was December 31,
2000. New York requested and was granted an extension through June 30, 2001. The 45-day
quarterly reporting guidelines did not apply to the closeout process.

The single audit findings presented in this report represent those findings included in the most
recent single audit report that the single auditors considered unresolved. We understand that
management’s perspective for these findings may differ from that of the single auditors.

As to the revised closeout package, the State appropriately omitted $5,023,129 of disallowed
costs, and included other adjustments of $407,260 to total JTPA expenditures. The revised
closeout package included all of the previously omitted schedules listed at procedure 2 of this
report.




                                                 8
                                                                                    EXHIBIT I


                            THE COMPLETE TEXT OF
                       NEW YORK’S RESPONSE TO THE DRAFT
                        AGREED-UPON PROCEDURES REPORT




Following this title page is the complete text of New York’s response to our agreed-upon
procedures report, issued to them on February 12, 2003.




                                               9
10
11
12
